OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S OFFICE OF
TRANSITION INITIATIVES’
SYRIA-RELATED ACTIVITIES
(EXECUTIVE SUMMARY)

AUDIT REPORT NO. 8-276-14-002-P
JULY 30, 2014




FRANKFURT, GERMANY
This is a summary of our report on the “Audit of USAID’s Office of Transition Initiatives Syria-
Related Activities.”

The mission of the USAID Bureau of Democracy, Conflict, and Humanitarian Assistance’s Office
of Transition Initiatives (OTI) is to help local partners in priority countries in crisis advance peace
and democracy. As its Web page notes, “OTI provides fast, flexible, short-term assistance” with
political transition and stabilization. It uses four criteria when determining whether to implement
programs: (1) the importance of the country to U.S. national interests, (2) the existence of a
window of opportunity, (3) the ability of OTI involvement to increase significantly the chances of
a successful transition, and (4) the existence of a sufficiently stable operating environment.

According to OTI officials, the first criteria—importance of the country to U.S. national
interests—predominated in the decision to work in Syria. Officials noted that changes in the
conflict over time have both diminished OTI’s capacity to effect a successful transition and
destabilized the operating environment in some areas.

In an effort to mitigate conflict and prepare for longer-term development assistance if conditions
stabilized, in January 7, 2013, OTI awarded a task order for a 3-year program.

OTI designed this program to promote a political transition that would:

	 Promote civil authorities that build the foundation for inclusive and representative
   governance structures.

	 Support civil society groups and communities to participate actively in an inclusive and
   representative political transition.

The Regional Inspector General/Frankfurt (RIG/Frankfurt) conducted this audit as part of its
fiscal year 2014 audit plan to determine whether OTI’s efforts are building inclusive and
accountable governance structures that reflect the will and needs of the Syrian people.

The extent to which OTI’s efforts were successfully building inclusive and accountable
governance structures was still unclear. The contractor had not conducted formal evaluations of
overall program impact because the program was still relatively new—only slightly more than 1
year into the 3-year program. However, during the audit period, the contractor awarded a
subcontract for evaluation activities, with preliminary field research to be completed in June
2014.

While overall impact was still unclear, the program had made progress on awarding grants with
the program goal in mind. Further, the contractor had taken steps to establish mechanisms to
monitor both program activities and the changing environment in Syria. However, the ongoing
conflict resulted in challenges that have led to delays in development and implementation of
these activities. The audit identified inconsistencies in some activity data and made three
recommendations related to these areas.

Management decisions were acknowledged on three recommendations and final action was
taken on two.




                                                                                                     1
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
